                                 Office of Inspector General
                                                             April 2013

Business Loans                               nally and civilly, the SBA filed a Com-     Alabama Woman Sentenced in Loan
                                             plaint on March 13, 2012, with the SBA      Fraud Case
Maryland Woman Pleads Guilty                 Office of Hearings and Appeals. The
                                             Complaint against the man and his busi-     On April 23, 2013, an Alabama woman
On April 5, 2013, a Maryland woman           ness was filed under the authority of       was sentenced to five years of proba-
plead guilty to one count of conspiracy      the Program Fraud Civil Remedies Act        tion, a $100 special assessment fee, and
to commit bank fraud and one count of        (PFCRA).                                    restitution of $1,380,486.17, to be paid
money laundering. The woman is an                                                        jointly and severally with a co-
attorney with offices in Virginia, and the   Texas Attorney Pleads Guilty to             conspirator. The woman pled guilty on
owner/operator of a title company, also      Misprision of a Felony                      July 26, 2012, to a single count Infor-
located in Virginia. The woman con-                                                      mation charging her with loan fraud.
spired with a man and his brother, who       On April 23, 2013, a Texas attorney pled    She had obtained an SBA-guaranteed
owned and operated a loan brokerage          guilty to one count of misprision of a      loan of $1,529,000 from the Small Busi-
company. She used her settlement com-        felony. The investigation revealed that     ness Loan Source (SBLS) for the purchase
pany and law firm to facilitate loan clos-   the attorney and two women, who have        of a business. The loan had an outstand-
ings for deals that would otherwise fail     already pled guilty to their charges,       ing balance of $1,380,486. The investi-
to meet the lending parameters of the        conspired to deceive two banks into         gation revealed that the $260,000 equity
banks making the loans, including banks      making loans to the buyer. The conspir-     injection that she was required to pay on
authorized to lend under SBA’s Section 7     acy involved an SBA-guaranteed loan         this loan actually came from the seller,
(a) program. She helped the brothers         from one bank for $1.835 million to         and that both individuals falsely repre-
misrepresent the true amount of money        purchase a laundromat, and two private      sented to the SBLS that the equity injec-
involved in the transactions and/or the      commercial loans from a second bank         tion came from the woman. Specifically,
true names of the parties taking part in     totaling over $1.3 million. Both pur-       the two created and submitted false
the transactions. The fraudulent docu-       chases involved companies affiliated        bank statements, checks, and certificate
mentation overstated the net worth and       with the seller. The investigation re-      of deposit receipts to represent that the
equity injection amounts of the borrow-      vealed that on the loan applications and    funds were originally a gift to the wom-
ers to falsely enhance their creditworthi-   in conversations with bank personnel,       an from her grandmother. This case was
ness. This is a joint investigation with     the defendants misrepresented the           predicated on information received from
the Federal Bureau of Investigation (FBI)    buyer’s assets, source of the equity        the OIG’s Early Fraud Detection Working
and the United States Postal Inspection      injection, and down payment funds.          Group.
Service.                                     The attorney, acting as the escrow
                                             officer for the buyer, fraudulently dis-    Disaster Loans
$2.5 Million Judgment Entered Against        bursed $498,729 of proceeds to the
New Jersey Man                               seller without the consent or permis-       Texas Man Pleads Guilty to Forgery
On April 18, 2013, a default judgment        sion of the SBA lender. The seller im-      Related to Hurricane Katrina
was entered against a New Jersey man in      mediately purchased a cashier’s check
the amount of $255,793.98, plus $370.00      for $431,229 for the buyer to use as the    On April 8, 2013, a Texas man pled guilty
in costs, and post-judgment interest.        required equity injection. The seller       to one count of forgery of contracts,
This case was based on a referral from       also paid the attorney $30,000 to assist    deeds, or powers of attorney, as charged
the OIG Early Fraud Detection Working        in obtaining approval of the loans from     in an indictment filed on March 28,
Group and involved a $255,000 SBA Ex-        both banks. This is a joint investigation   2012. This case was predicated on a
press loan disbursed to the man for his      with the FBI.                               referral received from the SBA Disaster
business. Allegations against him includ-                                                Processing and Disbursement Center.
ed false statements and misuse of loan                                                   The investigation revealed that the man
proceeds in connection with this loan.                                                   forged signatures of his estranged wife
After the case was declined both crimi-                                                  and others on SBA loan documents in
                                                                                                                       Page 2

                         order to obtain two SBA dis-       equipment that one would          $50,000 annually to assist the
                         aster loans in connection with     expect to find at a surgical      firm, an 8(a) certified busi-
                         Hurricane Katrina. The SBA         practice which, according to      ness, in obtaining DHS con-
                         approved a $95,600 home            notes in SBA’s Disaster Credit    tracts. The former director
                         loan to repair his alleged resi-   Management System, was            received $12,500 before the
                         dence and a $71,800 business       fully operational. In addition,   scheme was discovered. This
                         loan to repair the other half      he submitted fraudulent in-       is a joint investigation with
                         of the same duplex, which          voices to the SBA for             the U.S. National Aeronautics
                         was purportedly utilized as a      $56,449.91 and used SBA           and Space Administration
                         rental property.      The man      funds for living expenses and     (NASA) OIG, the Defense
                         used the loan proceeds for         gambling. He also received        Criminal Investigative Service
                         personal living expenses (i.e.     $150,000 from the Louisiana       (DCIS), and DHS OIG.
                         hotel rooms, dining, a vehicle     Road Home program based
                         purchase, gas, etc.) and none      on an application he filed for
                                                                                              Two Plead Guilty in Bribery
                         to repair the real property,       damages to a home he did
                                                                                              Investigation
                         which actually belonged to         not live in at the time of Hur-
                         his estranged wife. The SBA        ricane Katrina. This is a joint
                                                                                              On April 11, 2013, a technolo-
                         suffered a loss of approxi-        investigation with the U.S.
                                                                                              gy firm pled guilty to a crimi-
                         mately $54,000.                    Housing & Urban Develop-
                                                                                              nal Information charging one
                                                            ment OIG and the FBI.
                                                                                              count each of conspiracy and
                         Louisiana Man Sentenced on         Government                        bribery of a public official in
                         False Statements Charge                                              U.S. District Court for the
                                                            Contracting                       District of Columbia. On the
                         On April 18, 2013, a Louisiana
                                                                                              same date, a woman pled
                         man was sentenced to 3             Two Plead Guilty in 8(a) Con-     guilty to a single count Infor-
                         years’ probation, restitution      spiracy Investigation             mation charging her with
                         of $54,174.91, and a special
                                                                                              conspiracy to commit bribery
                         assessment of $100. The            On April 8, 2013, a Virginia
Woman and technology                                                                          of a public official. The inves-
                         sentencing was a result of his     man pled guilty to one count      tigation revealed that the
  firm plead guilty in   guilty plea to one count of        of false statements to the        woman, the technology firm,
                         making a false statement. He       SBA. The man submitted an
       US Army                                                                                and others conspired to en-
                         had obtained a $430,500 SBA        8(a) application on behalf of a   rich themselves by the fraud-
  Corps of Engineers     disaster loan for the repair of    security firm of which he was     ulent procurement of govern-
                         his dental practice, which was     the sole owner. The applica-
 Bribery Investigation                                                                        ment contracts and subcon-
                         destroyed by Hurricane Katri-      tion contained numerous           tracts to the firm by the U.S.
                         na. According to the SBA           false and misleading state-       Army Corps of Engineers
                         Loan     Authorization     and     ments concerning his employ-      (USACE) and the U.S. Depart-
                         Agreement, he agreed to use,       ment and the source of fund-      ment of the Army (Army).
                         as collateral for the loan, a      ing and revenue for his           The firm and its representa-
                         property where he was to           firm. On April 11, 2013, a        tives paid bribes in return for
                         operate his surgical practice      regional director of the Fed-     the public officials using their
                         and the fixtures and equip-        eral Protective Service (FPS),    official positions to provide
                         ment that he was to purchase       U.S. Department of Home-          preferential treatment to the
                         with the loan funds. The in-       land Security (DHS), pled         company, an SBA certified
                         vestigation revealed that the      guilty in the Eastern District    8(a) program participant.
                         property to be used as collat-     of Virginia to one count of       This is a joint investigation
                         eral was in disrepair. The         conspiracy to commit brib-        with the FBI; the Internal Rev-
                         walls were unfinished, show-       ery. The FPS director and an-     enue Service, Criminal Inves-
                         ing the studs, and the build-      other man, the former owner       tigations (IRS-CI); the U.S.
                         ing had no permanent electri-      of the security firm, entered     Army Criminal Investigation
                         cal power. Also, there were        into an agreement whereby         Division (Army CID); and DCIS.
                         no furnishings, fixtures, or       the director would be paid
                                                                                                                                   Page 3

Department of Defense             tween the businesses to ob-         he had documents on his com-
Employee Charged with             tain set-aside contracts. The       puter that were responsive to
Bribery                           joint venture received two          the subpoena and relevant to
                                  contracts totaling over $1          the pending investigation, but      Many OIG reports can be
On April 12, 2013, a supervi-     million from the Department         he deleted them nonetheless.        found on the OIG’s web-
sor in the Department of De-      of Veterans Affairs (VA) be-        This referral was received from                site
fense, Construction and Ser-      fore the SDVOSB status of the       the Government Accountabil-           http://www.sba.gov/
vice Contracts Inspection         joint venture was challenged.       ity Office (GAO) FraudNet.             office-of-inspector-
Branch, was charged by crimi-                                         This is a joint investigation
                                  In February 2008, the SBA                                                        general
nal Information with one                                              with the VA OIG, Army CID,
                                  ruled that neither the joint
count of bribery. This case is                                        and the General Services Ad-
                                  venture nor the man’s busi-
associated with an investiga-                                         ministration OIG.
                                  ness qualified for the pro-
tion involving numerous vio-
                                  gram. The SBA made this
lations of federal statutes,
                                  determination primarily be-
including false statements to
                                  cause of the veteran’s lack of
the SBA. The allegations of
                                  participation in the business.
bribery of a public official
                                  Despite this ruling, the man
developed during an investi-
                                  continued to operate his busi-
gation into contractors in the
                                  ness as an SDVOSB and re-                          Office of Inspector General
SBA’s 8(a) Program in San
                                  ceived     three     additional
Diego who were allegedly
                                  SDVOSB contracts totaling
                                                                                         Peggy E. Gustafson
receiving kickbacks from sub-                                                             Inspector General
                                  approximately $1.7 million.
contractors. This is a joint
                                  He also forged the veteran’s                                      ***
investigation with the FBI,
                                  signature on contracts, corre-        If you are aware of suspected waste, fraud, or abuse in any
Naval Criminal Investigative
                                  spondence, and checks and                        SBA program, please report it online at
Service, IRS CI, DCIS, and the
                                  used other means to give the
General Services Administra-                                                http://www.sba.gov/office-of-inspector-general/2662
                                  appearance that the veteran
tion (GSA) OIG.
                                  ran this business, when, in
                                  fact, he did not. This is a joint         Or call the OIG Hotline toll-free, at (800) 767-0385
Georgia Man Pleads Guilty to
                                  investigation with the VA
False Statements in
                                  OIG, Department of Agricul-            We welcome your comments concerning this update or
Government Contracts
                                  ture OIG, Army CID, and DHS              other OIG publications. To obtain copies of these
Scheme
                                  OIG.                                             documents please contact us at:
On April 15, 2013, a Georgia      Massachusetts Man Charged
man pled guilty to one count      with Obstruction of an                                        SBA OIG
of false statements. The in-      Official Proceeding                                     409 Third Street SW,
vestigation revealed he oper-                                                                  7th Floor
ated a scheme to use, fraudu-     On April 23, 2013, a Massa-
                                                                                         Washington, DC 20416
lently, the status of a legiti-   chusetts man was charged in
mate service-disabled veter-      a criminal Information with                             E-mail: oig@sba.gov
an to obtain government con-      one count of obstruction of                          Telephone: (202) 205-6586
tracts set-aside for Service-     an official proceeding. The                             FAX (202) 205-7382
Disabled,     Veteran-Owned       Information alleges that the
Small Businesses (SDVOSB).        man received a subpoena for
The man owned one business        records relating to his busi-
and established a second          ness dealings with another
business as an SDVOSB com-        company, a Service-Disabled,
pany owned by the service-        Veteran-Owned       business.
disabled veteran. He then         Allegedly, he was aware that
created a joint venture be-
